  October 28, 2005




Financial Management
Independent Examination of
Valuation and Completeness of
U.S. Army Corps of Engineers,
Buildings and Other Structures
(D-2006-009)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CEFMS                 Corps of Engineers Financial Management System
COEMIS                Corps of Engineers Management Information System
EC                    Engineer Circular
ER                    Engineer Regulation
FMR                   Financial Management Regulation
GAAP                  Generally Accepted Accounting Principles
GAO                   Government Accountability Office
GLAC                  General Ledger Accounting Code
PP&E                  Property, Plant, and Equipment
MOA                   Memorandum of Agreement
OIG                   Office of Inspector General
REMIS                 Real Estate Management Information System
USACE                 U.S. Army Corps of Engineers
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                       October 28,2005


MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on Independent Examination of Valuation and Completeness of
         U.S. Army Corps of Engineers Buildings and Other Structures
         (Report No. D-2006-009)

        We are providing this report for your information and use. This is the third in a
series of reports related to management assertions by the U.S. Army Corps of Engineers
on Civil Works buildings and other structures. We considered management comments on
a draft of this report when preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Carmelo G. Ventimiglia at (317) 510-3855 (DSN 699-3855) or Mr. George
DeBlois at (317) 510-3852 (DSN 699-3852). See Appendix H for the report distribution.
The audit team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                 p a u p a n e t t o , CPA
                               Assist t Inspector General
                               Defense Financial Auditing
                                         Service
               Department of Defense Office of Inspector General
Report No. D-2006-009                                                  October 28, 2005
  (Project No. D2004-D000FI-0037.002)

        Independent Examination of Valuation and Completeness
                   of U.S. Army Corps of Engineers
                    Buildings and Other Structures

                                 Executive Summary

Who Should Read This Report and Why? U.S. Army Corps of Engineers (USACE)
and Department of Defense personnel responsible for the financial reporting and
accountability of buildings and other structures should read this report. The report
discusses the accuracy of assertions about the valuation and completeness of buildings
and other structures and the related transactions reported in the USACE, Civil Works
financial statements.

Background. General Property, Plant, and Equipment was the largest category of assets
reported in the USACE, Civil Works financial statements for the fiscal years ending
September 30, 2004 and 2003. In this category, buildings and other structures comprised
$18.3 billion of the $30.9 billion reported in FY 2003 and $16.1 billion of the
$28.4 billion reported in FY 2004. Buildings and other structures include all buildings,
structures, and other facilities affixed to USACE land in the continental United States,
Alaska, and Hawaii.

Assertions are representations by management that are embodied in the financial
statements. This is the third and final in a series of reports related to management
assertions by USACE on its Civil Works buildings and other structures. In the
two previous reports, we determined that USACE misreported the existence of 164 of
1,211 sampled buildings and other structures, valued at $594.9 million, and the rights of
an additional 208 sampled buildings and other structures, valued at $55.5 million, as of
June 30, 2003. However, in those reports we did not statistically project the effect that
the problems with the sample items had on the balances in the buildings and other
structures accounts that USACE used to report General Property, Plant, and Equipment.
This report will address the effect the misstatements had on the USACE, Civil Works
Balance Sheet. We performed this examination in support of the audit of the principal
USACE, Civil Works financial statements for the fiscal years ending September 30, 2004
and 2003.

Results. USACE materially misstated the value of buildings and other structures
reported on its June 30, 2003, Civil Works Balance Sheet by an estimated $4.4 billion. In
addition, USACE could not provide documentation to support the recorded book value of
$1.8 billion in buildings and other structures. As a result, the USACE management
assertion that material transactions were properly recorded in the accounting records was
inaccurate. The failure to identify and correct the inaccuracies resulted in a material
misstatement of the FYs 2003 and 2004 Civil Works Balance Sheets. Until USACE
districts fully implement corrective actions that were initiated in July 2004, the Civil
Works Balance Sheet will remain materially misstated. USACE should resolve the errors
discussed in this report and validate the implementation of the Memorandum of
Agreement, including the proper recording and support for the book costs and placed-in-
service dates of USACE buildings and other structures. USACE needs to develop and
enforce a consistent useful life policy and publish updated guidance that provides
districts with detailed procedures for addressing other problem areas. USACE also needs
to determine the feasibility of a system change to better control the establishment of
useful lives and changing the method used to begin depreciating buildings and other
structures (finding A).

USACE failed to report 147 structures correctly, with an estimated net book cost of
$3.7 million and a net book value of about $1 million, in its Civil Works Balance Sheet
and notes as of June 30, 2003. During completeness testing, we identified 84 structures
that were not capitalized and 43 structures that were not retired as of June 30, 2003.
Additionally, districts failed to consistently capitalize structures that met the USACE
capitalization threshold. As a result, the structures reported in general ledger account
codes 1730 (buildings) and 1740 (other structures) were inaccurate. USACE should
improve inventory management procedures and ensure that the Corps of Engineers
Financial Management System accurately reflects inventory results. USACE should also
develop a clear policy for capitalizing principal structures and integral components
(finding B). (See the Findings section for detailed recommendations.)

Management Comments and Audit Response. The Commander of USACE concurred
with the findings and recommendations and stated that an updated Information Paper
No. 10, “Buildings and Other Structures,” was issued to districts to implement corrective
actions for buildings and other structures identified in this and previous reports. He
developed new regional assessment teams to validate such items as placed-in-service
dates, recorded book costs, and compliance with new useful life policies. The
Commander stated that Engineer Regulation 37-1-30 and Engineer Circular 405-1-2 are
being revised to include all guidance related to real property assets. He also stated that
USACE would assess the economic and financial impacts of making system changes to
the Corps of Engineers Financial Management System and use the results to determine
the feasibility of making the system changes. Further, the Commander stated that a
waiver from DoD policy will be requested from the Under Secretary of Defense
(Comptroller) for USACE-unique assets. (See the Findings section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.)

Management Actions. During the course of this independent examination, USACE
began to take corrective actions to resolve problems we identified. In July 2004, USACE
provided its districts with Information Paper No. 10 that addressed the corrective actions
needed to resolve issues identified during our independent examination. We reviewed
the status of corrective actions as of the end of FYs 2003 and 2004 and as of December
31, 2004. Although limited corrective actions had been completed by the end of FY
2004, USACE districts made a more concerted effort to resolve identified errors
beginning in the first quarter of FY 2005. In May 2005, USACE sponsored a workshop
in which representatives from each district were placed on regional teams and
empowered to help correct deficiencies within the districts. (See the Findings section of
the report for a complete discussion of the management actions.)




                                            ii
Table of Contents

Executive Summary                                                  i

Background                                                         1

Objective                                                          2

Findings
     A. Valuation of USACE Buildings and Other Structures          3
     B. Completeness of Buildings and Other Structures Accounts   18

Appendixes
     A.    Scope and Methodology                                  26
     B.    Prior Coverage                                         28
     C.    Glossary                                               30
     D.    Memorandum of Agreement                                32
     E.    Sampling Methodology                                   33
     F.    COEMIS to CEFMS Conversion Process                     35
     G.    District Memorandum                                    37
     H.    Report Distribution                                    43

Management Comments
     U.S. Army Corps of Engineers                                 45
Background
           The U.S. Army Corps of Engineers (USACE) reports General Property, Plant, and
           Equipment (PP&E) as an asset line item on its Civil Works Balance Sheet. The
           net book value represents the difference between the historical acquisition (book)
           cost and the associated accumulated depreciation of the assets. For FY 2003, the
           net book value of general PP&E was $30.9 billion. Buildings and other
           structures 1 comprised $18.3 billion of the total general PP&E. For FY 2004, the
           net book value of general PP&E was $28.4 billion. Buildings and other structures
           comprised $16.1 billion of the total general PP&E. As of September 30, 2003,
           USACE had about 40,000 structures located at about 1,273 field sites in the
           continental United States, Alaska, and Hawaii.

            Financial Statement Assertions. Generally accepted accounting principles
           (GAAP) describe assertions as representations by management that are embodied
           in financial statement components. The assertions can be either explicit or
           implicit and can be classified according to the following broad categories:
           existence or occurrence (existence), rights and obligations (rights), valuation or
           allocation (valuation), presentation and disclosure, and completeness. Assertions
           about valuation address whether asset, liability, equity, revenue, and expense
           components have been included in the financial statements at appropriate
           amounts. Assertions about completeness address whether all transactions and
           accounts that should be presented in the financial statements are included.
                   FY 2003. USACE management is responsible for the fair presentation of
           their Civil Works financial statements and the Required Supplementary
           Stewardship Information. They are also responsible for establishing and
           maintaining a system of internal control. The USACE “Management
           Representation Letter for the FY 2003, Civil Works, Financial Statements,”
           December 3, 2003, asserted that:

                     •   representations were presented fairly in accordance with GAAP;

                     •   material transactions were properly recorded in the accounting records
                         underlying the financial statements or disclosed in the notes to the
                         financial statements;
                     •   all Civil Works buildings and other structures capitalized under
                         $25,000 (excluding revolving fund structures and Power Marketing
                         Agency assets) were expensed in FY 2003 and removed from the
                         Corps of Engineers Financial Management System (CEFMS);

                     •   long-lived assets (structures) and certain identifiable intangibles were
                         reviewed and a determination was made that if events or changes in
                         circumstances caused impairments, the reported amounts of assets
                         would be accounted for, appropriately recorded, and adjusted; and

                     •   provisions were made to reduce excess or obsolete inventories to their
                         estimated net realizable value.

1
    In this report, the term “structures” includes buildings and other structures unless otherwise specified.



                                                         1
    The letter also stated that in FY 2003 a material weakness existed in controls over
    additions and deletions to structures and those corrective actions were ongoing.

           FY 2004. In “Management Assurance Concerning U.S. Army Corps of
    Engineers, Civil Works, FY 2004 Financial Statements Taken as a Whole,”
    November 8, 2004, USACE asserted that the FY 2004, USACE, Civil Works
    financial statements may not be fairly presented in conformity with Federal
    accounting standards. The major deficiency was the inability to provide sufficient
    documentation to support the historical cost of many of the older assets. The
    DoD Office of Inspector General (OIG) and USACE agreed to alternate methods
    of documentation in a Memorandum of Agreement (MOA), “Support for
    Recorded Book Cost of General Property, Plant, and Equipment Assets, U.S.
    Army Corps of Engineers, Civil Works,” on June 9, 2004.

    Previous Reports. DoD IG Report No. D-2005-035, “Existence of U.S. Army
    Corps of Engineers Buildings and Other Structures,” February 15, 2005, reported
    that USACE had misreported the existence of 164 of the 1,211 sampled
    structures, with a net book value of $594.9 million, as of June 30, 2003. DoD IG
    Report No. D-2005-046, “Independent Examination of the Rights to U.S. Army
    Corps of Engineers Buildings and Other Structures,” March 25, 2005, determined
    that USACE misreported the rights to an additional 208 sampled structures, with
    a net book value of $55.5 million, as of June 30, 2003. We determined that the
    entire book value of 365 of the 372 sampled structures was fully misstated and
    should be removed from CEFMS. This report will summarize those
    misstatements and address the results of testing on the remaining 846 structures
    for the accuracy of USACE valuation assertion. This report will also address the
    results of testing the CEFMS structures database for completeness.


Objective
    The objective of this attestation engagement was to verify accuracy in the
    buildings and other structures portion of the general PP&E line item and related
    note disclosure to the FY 2003 Balance Sheet. We expanded the engagement to
    determine whether the problems that we identified with the sampled structures
    were corrected as of September 30 and December 31, 2004. We performed the
    procedures in accordance with generally accepted government accounting
    standards, incorporating attestation engagement standards. See Appendix A for a
    discussion of the scope and methodology, Appendix B for prior coverage related
    to the objective, and Appendix C for a glossary of terms used throughout the
    report.




                                         2
            A. Valuation of USACE Buildings and
               Other Structures
            USACE materially misstated the book value of structures reported on its
            June 30, 2003, Civil Works Balance Sheet by $4.4 billion. In addition,
            USACE could not provide documentation to support the recorded book
            value of $1.8 billion in structures. The misstatements occurred because
            USACE personnel did not:

                    •   ensure that structures physically existed in the condition and
                        classification recorded in the accounting records or were being
                        used for an intended purpose,

                    •   properly record the rights to the reported structures,

                    •   ensure that documentation was available to properly support
                        the placed-in-service dates and recorded historical book costs
                        of structures, and

                    •   properly establish recovery periods to depreciate the structures.

            As a result, the USACE management assertion that material transactions
            were properly recorded in the accounting records was inaccurate. The
            failure to identify and correct the inaccuracies resulted in a material
            misstatement of the FYs 2003 and 2004 Civil Works Balance Sheets.
            Until USACE districts fully implement corrective actions that were
            initiated in July 2004, the Civil Works Balance Sheet will remain
            materially misstated.


Criteria
     Statement of Federal Financial Accounting Standards. Statement of Federal
     Financial Accounting Standards No. 6, “Accounting for Property, Plant, and
     Equipment,” June 1996, contains accounting standards for federally owned
     general PP&E. General PP&E is defined as tangible assets that:

            •   have an estimated useful life of two or more years,

            •   are not intended for sale in the ordinary course of business, and

            •   are intended to be used or available for use by the entity.

     General PP&E should be recorded at cost, which includes all costs incurred to
     bring the general PP&E to a form and location suitable for its intended use.
     Constructed general PP&E should be recorded in a construction-in-process
     account until it is placed in service, at which time the balance is transferred to
     either the buildings account (general ledger account code [GLAC] 1730) or the
     other structures account (GLAC 1740).




                                           3
          DoD Financial Management Regulation. The DoD Financial Management
          Regulation (FMR), volume 4, “Accounting Policy and Procedures,” chapter 6,
          “Property, Plant, and Equipment,” August 2000, contains the DoD accounting
          standards for general PP&E. Depreciation expenses are to be calculated and
          accumulated by using the straight-line method based on the recorded cost, less
          salvage value, and divided equally among accounting periods during the
          structure’s useful life. Accumulated depreciation is the amount of depreciation
          expense that has been added over a period of time and calculated from the placed-
          in-service date of the asset. DoD FMR, volume 4, assigns a useful life of 40 years
          for buildings and 20 years for other structures. For the purpose of calculating
          depreciation, structures do not have salvage value.

          Memorandum of Agreement. USACE lacked documentation to support the
          book cost of a significant portion of its general PP&E assets. In coordination
          with USACE and the Government Accountability Office (GAO), we developed
          standards for acceptance of supporting documentation. However, the types and
          availability of documentation varied for structures that were placed in service
          before the implementation of CEFMS and those placed in service after
          implementation. During the audit, these standards were incorporated into an
          MOA between USACE and DoD OIG. See Appendix D for more details
          concerning the MOA.


Sampling Methodology
          We tested a statistical sample of 1,211 property identification codes at 43 project
          sites for accuracy of the USACE assertions made on the financial data. The
          projection of the potential misstatement in the structures portion of the general
          PP&E line item was based on the results of our existence, rights, and valuation
          testing. See Appendix E for more details concerning sampling methodology.

          On previously performed testing 2 of the sampled structures for the existence and
          rights assertions, we determined that the entire book value of 365 sampled
          structures, valued at $631.5 million, was fully misstated and should be removed
          from CEFMS. Therefore, we did not perform additional valuation testing on
          those structures.

          To test the valuation assertion for the remaining 846 structures, we conducted
          tests to determine whether structures were:

                   •   supported by documentation that verified the book costs and
                       placed-in-service dates,

                   •   recorded at the correct book costs,

                   •   placed in service on the correct dates,

2
    DoD IG Report No. D-2005-046, “Independent Examination of the Rights to U.S. Army Corps of
    Engineers Buildings and Other Structures,” March 25, 2005, and DoD IG Report No. D-2005-035,
    “Independent Examination of the Existence of U.S. Army Corps of Engineers Buildings and Other
    Structures,” February 15, 2005.




                                                    4
           •   assigned the correct useful lives, and

           •   recorded at the correct book values as of June 30, 2003.


Supportability of CEFMS Book Cost and Book Value
    Of the 846 sampled structures, 112 did not have the documentation required by
    the MOA to support all or part of their book costs and book values. Table 1
    shows the level of documented support for the 846 sampled structures and their
    associated book costs and book values.

                          Table 1. Support for Book Costs
                                     Number of    Book Cost          Book Value
             Level of Support
                                    Sample Items (in millions)       (in millions)
       Fully supported                 734         $3,528.0            $2,579.0
       Fully unsupported                55             66.6                59.9
       Partially unsupported            57            753.3               689.0


    We are 95 percent confident that, when we projected the unsupported amounts
    over the entire population, USACE did not have documentation to support
    between $721 million and $2.9 billion of the reported book value of structures as
    of June 30, 2003. Appendix E provides details of the sample projections.

    Fully Unsupported Book Costs. USACE personnel could not provide
    documentation to support the recorded book costs of 55 sampled structures. At
    4 project sites, we identified 33 structures that were not properly supported by a
    conversion spreadsheet. Pittsburg District personnel could not provide us with
    the conversion spreadsheet for Youghiogheny Lake, Pennsylvania, where 12 of
    the 33 sampled structures were located. Also, the conversion spreadsheets at
    Cooper Dam and Ray Roberts Lake, Texas, and Richard B. Russell Dam, South
    Carolina, had significant flaws that needed to be corrected before we could
    consider the conversion spreadsheets as adequate support for 21 sampled
    structures. See Appendix F for more details concerning the Corps of Engineers
    Management Information System (COEMIS) to CEFMS conversion process.

     At 12 project sites, we identified 22 structures that did not have sufficient
    found-on-works appraisals or third party documentation to support the recorded
    book costs in CEFMS. For example, USACE personnel were not able to provide
    documentation to support the book cost of a hazardous waste building placed in
    service on May 12, 2000, in Walla Walla, Washington. We considered the book
    cost of each of the 55 sampled structures to be unsupported and excluded them
    from further valuation testing.

    Partially Supported Book Cost. USACE personnel could not provide
    documentation to support portions of the recorded book cost for an additional
    57 sampled structures. Of the sampled structures, 44 were placed in service
    before CEFMS implementation, but the amounts recorded in CEFMS did not
    match the reconciled conversion spreadsheets and USACE personnel did not
    provide additional support to explain the difference. The remaining 13 sampled


                                         5
    structures were placed in service after conversion but lacked the required third
    party documentation to support a portion of the recorded book cost. The
    following are some examples of partially supported book cost.

           •   A cutoff wall dam at Beaver Lake in Rogers, Arkansas, had a CEFMS
               book cost of $26,521,654.36, but the conversion spreadsheet used as
               support assigned a book cost of $26,399,342. The district was unable
               to provide any supporting documentation for the $122,312.36
               difference in book cost.

           •   Recreational campsites at Canyon Lake Park, Texas, were placed in
               service on July 27, 1999, after CEFMS implementation. We obtained
               third party documentation that supported a book cost of $359,433.67.
               However, the book cost recorded in CEFMS was $437,130.84. The
               $77,697.17 difference was unsupported.

    Therefore, we did not include these unsupported costs in any projection of the
    known misstatement of the buildings and other structures accounts.

    Conclusion. USACE did not have documentation to support a significant portion
    of the reported book value of structures reported on the FY 2003 and 2004 Civil
    Works Balance Sheets. The MOA provides guidance as to what documentation
    should be available to support the book cost of each structure in CEFMS.
    USACE headquarters personnel must validate that each district complied with the
    MOA requirements. Districts must determine whether the book cost of each
    structure in CEFMS is properly supported and, as necessary, correct conversion
    spreadsheets and obtain additional documentation. Conversion spreadsheets with
    significant flaws must be reconstructed to provide adequate support for structures
    placed in service before conversion to CEFMS. Any remaining unsupported book
    costs should be removed from CEFMS. Furthermore, supporting documentation
    must be maintained in a readily available location for the required retention time.
    The lack of supporting documentation made it impossible to determine whether
    the reported book costs represented only those costs required to bring the
    structures to a form and location suitable for their intended use, or whether the
    costs included should have been expensed or capitalized elsewhere.


Book Value Projections
    Overall, we are 95 percent confident that USACE misstated the book value of the
    structures portion of its general PP&E line item by between $3.3 billion and
    $5.5 billion as of June 30, 2003. Appendix E provides details of the sample
    projections. This overstatement exceeded the test materiality of $378.6 million.
    The projection was based on the existence, rights, and valuation testing we
    performed on the 1,211 sampled structures. The remainder of this report uses the
    sample data to quantify test results. Table 2 shows the known misstated amounts
    of book cost and book value of the sampled structures by the assertion tested.




                                         6
                              Table 2. Sample Misstatements as of June 30, 2003
                    Assertion                          Book Cost       Book Value
                                  Number of Errors
                     Tested                           (in millions)    (in millions)
                 Existence              163*                 $ 887          $595
                 Rights                 208                      74            55
                 Valuation              779                      84          338
                 Total                  1,150**              $1,045         $988
                 * Six structures partially failed existence testing. We subjected the existing portions of
                     the six structures to rights and valuation testing.
                 ** Six structures failed more than one assertion.


           We provided detailed audit results to the 18 district commanders responsible for
           the 43 sites we visited. Appendix G identifies the date of each memorandum and
           provides an example of the memorandum we sent to each district commander.

           Existence Testing
           DoD IG Report No. D-2005-035 identified that 164 of the sampled structures 3
           failed existence testing. As a result, about $595 million in book value reported on
           the balance sheet for these sampled structures was considered misstated. We
           determined that USACE personnel did not follow established procedures to
           determine whether:

                    •   a tangible structure existed in a condition consistent with the
                        supporting documentation,

                    •   property identification codes were properly classified,

                    •   impairments to structures were identified and retirement transactions
                        were recorded in CEFMS in the period that the impairment occurred,
                        and

                    •   structures that no longer provided an operational service to USACE
                        were retired from CEFMS.

           In DoD IG Report No. D-2005-035, we reported that physical inventories
           conducted by district personnel were not effective and did not result in proper
           reconciliations.




3
    Subsequent to issuing DoD IG Report No. D-2005-035, Portland District provided additional
    documentation supporting the existence of one structure. Therefore, we included it in the valuation
    testing.



                                                       7
           Rights Testing
           DoD IG Report No. D-2005-046 identified that 208 sampled structures failed
           rights testing. As a result, the $55.5 million in book value reported on the balance
           sheet for the 208 sampled structures was considered misreported. USACE had
           not developed policies and procedures to require district personnel to:

                    •    identify whether structures being leased to other entities should have
                         been classified as capital leases,

                    •    retire structures from CEFMS upon transfer to other Government
                         entities, and

                    •    retire structures from CEFMS upon transfer to local governments and
                         private entities.

           USACE had 208 structures that qualified as capital leases or were transferred to
           other entities and should have been removed from the buildings and other
           structures accounts.

           Valuation Testing
           Valuation testing conducted on the remaining 791 sampled structures 4 identified
           779 structures that failed one or more of the valuation tests. We tested the
           791 structures to determine whether their book costs, placed-in-service dates, and
           useful lives were correctly established. For the sampled structures that had
           accurate book costs, placed-in-service dates, and useful lives, we determined
           whether depreciation was calculated correctly. Valuation test failures resulted in
           a $338 million misstatement in book value as of June 30, 2003. Table 3 shows
           the number of errors for each type of valuation test.



                                  Table 3. Valuation Test Failures
                             Reason for Failure                Number of Errors*
                         Book cost misstatements                    61
                         Placed-in-service dates                   147
                         Useful lives                              584
                         Depreciation calculation                  141
                         * 633 structures failed 1 valuation test and 146 structures
                         failed 2 or more valuation tests.


           Book Cost Misstatements. USACE did not properly record the book cost of
           61 sampled structures, causing the net book cost to be overstated by
           $83.9 million. District personnel did not always verify that only costs incurred to
           bring the structure to a form and location suitable for its intended purpose were
4
    We did not conduct valuation testing on the 365 structures that failed existence and rights testing. We
    also excluded 55 structures from valuation testing because their full book costs were fully unsupported.



                                                       8
capitalized. District personnel did not accurately determine whether specific
costs should have been capitalized or expensed. As a result, costs such as
maintenance and repair were erroneously capitalized. Furthermore, the costs of
improvements that extended the useful life or improved the efficiency of
structures were not capitalized in accordance with the DoD FMR. The following
are examples of structures with misstated book costs.

       •   The book cost of the lock at Robert C. Byrd Lock and Dam,
           West Virginia, included $4 million in bank stabilization costs. The
           bank stabilization costs were actually stone and fabric for maintenance
           and repair of the riverbank that should have been expensed.

       •   The costs to replace the roof of the powerhouse at Harry S. Truman
           Lake, Missouri, were erroneously capitalized. According to the power
           plant manager, the roof was replaced because it was leaking. In
           accordance with the DoD FMR, the $630,598.22 spent to repair the
           roof should have been expensed.

       •   Additional costs to improve the existing lock structures at Melvin
           Price Lock and Dam, Illinois, were capitalized as separate structures
           instead of being capitalized as betterments to the lock structures.
           Consequently, USACE did not determine whether the betterment
           improved or extended the useful life of the lock and should have been
           capitalized and depreciated, or whether these costs should have been
           expensed.

USACE resource management personnel should review the book costs for the
structures and ensure that only those costs needed to bring the structures to a
condition and location suitable for their intended use are capitalized. If costs are
for maintenance and repair, or do not improve or extend the useful life of a
structure, the costs should be expensed.

Placed-in-Service Dates. District personnel did not follow USACE procedures
when entering the placed-in-service dates for structures in CEFMS. At 26 of the
43 field sites, 147 sampled structures had incorrect placed-in-service dates. The
placed-in-service date in CEFMS should be the date the structure is ready and
available for use and is essential in computing depreciation. Resource
management personnel failed to verify the completion dates reported on the
conversion spreadsheets and Engineer Form 3013, “Work Item Completion
Report,” when entering the dates in CEFMS. Because USACE used the month
available for service method to compute depreciation, the placed-in-service date
entered in CEFMS must be within the same depreciation month as the structure’s
date of completion. Otherwise, the structure would begin depreciating in the
wrong month. District personnel did not establish the correct placed-in-service
dates in CEFMS for the 147 sampled structures. Consequently, the accumulated
depreciation on each of the 147 sampled structures was incorrect. This error
resulted in the overstatement or understatement of the book value of the sampled
structures.

        Structures on Conversion Spreadsheets. The conversion spreadsheets
did not always list a placed-in-service date for every structure. In addition,




                                      9
information on the conversion spreadsheet was sometimes incorrect or not used
when entering the placed-in-service dates in CEFMS. The following are
examples of errors on the conversion spreadsheets.

       •   Three structures at Robert C. Byrd Lock and Dam, West Virginia,
           were assigned placed-in-service dates of December 1, 1987, on the
           conversion spreadsheet. However, project site personnel indicated that
           the three structures were part of the original project construction
           completed in 1937. Therefore, the structures had not been depreciated
           for about 50 years.

       •   At Arcadia Lake, Oklahoma, district personnel used January 1 of the
           year of acquisition as the placed-in-service date for all structures
           converted from COEMIS to CEFMS. However, January 1 was often
           not the actual date listed on the conversion spreadsheets. As a result,
           the placed-in-service dates for 15 sampled structures should have been
           1 to 3 months later than the dates in CEFMS.

The MOA required that the placed-in-service date certified on the conversion
spreadsheet be used to support the date in CEFMS. USACE must ensure that the
placed-in-service dates in CEFMS are correct.

       Post-Conversion Structures. Structures placed in service after the
implementation of CEFMS had placed-in-service dates that were not consistent
with the dates of completion reported on Engineer Form 3013. This form was
used as the control document for identifying the date the structure was physically
completed and available for use. However, district personnel used other dates,
such as the dates that the person entered information about the structure into
CEFMS, as the placed-in-service dates. In addition, district resource management
personnel were not ensuring that the date of completion shown on Engineer
Form 3013 reflected the actual date of completion shown on the supporting
documentation. The following are examples of post-conversion errors.

       •   A structure at Oahe Dam located near Pierre, South Dakota, had a
           placed-in-service date in CEFMS of September 28, 2000, but the
           Engineer Form 3013 listed a date of completion of July 25, 2000.
       •   A structure at Bo Woods recreation area located near Shelbyville,
           Illinois, had a placed-in-service date in CEFMS of November 13,
           2002. However, the supporting documents showed the actual
           completion date was on or before July 18, 2001.

        Methods of Depreciation. The DoD FMR allows either the month
available for service method or the midyear convention method for commencing
depreciation. The month available for service method starts depreciation in the
month the structure is available and ready for use. This method requires district
personnel to establish a placed-in-service date within the same depreciation
month as the date the structure is available for service. Otherwise, depreciation
will be computed incorrectly. The midyear convention method assigns 6 months
of depreciation in the first and last fiscal year of a structure’s useful life,
regardless of the actual date the structure was placed in service, as long as the
structure was placed in service in the correct fiscal year. Of the 147 sampled
structures with placed-in-service date errors, 28 would have had depreciation


                                    10
recorded correctly if USACE had used the midyear convention method. USACE
should consider the use of the midyear convention method of depreciation.

        Conclusion. USACE must ensure that the correct placed-in-service date
is entered in CEFMS. If USACE continues to use its current depreciation
method, USACE must ensure that the appropriate personnel understand the
importance of using the date of completion on the conversion spreadsheet or
Engineer Form 3013 as the placed-in-service date. For newer structures, the
resource management personnel need to validate that the date of completion is
supported by third party documents. Because of the added significance of
establishing accurate placed-in-service dates when using the month available for
service method of computing depreciation, USACE should assess whether
conversion to the midyear convention method is desirable.

Useful Lives. The USACE useful life policy for depreciating structures within
CEFMS conflicted with established DoD policy and was implemented
inconsistently. USACE established a useful life table that set useful lives for
structures that were generally longer than those specified in the DoD FMR. In
addition, USACE had not requested or received a waiver from the Office of the
Under Secretary of Defense (Comptroller) for establishing different useful lives
for USACE-unique assets. We identified 584 sampled structures located at 39 of
the 43 field sites that had incorrect useful lives.

        Common Structures. District personnel did not assign correct useful
lives to 505 sampled structures that are common structures identified in the
DoD FMR. In accordance with the DoD FMR, buildings and other structures
should have been assigned useful lives of 40 years and 20 years, respectively.
The assignment of incorrect useful lives affected the monthly depreciation rate
and contributed to the book value misstatement, as demonstrated by the following
examples.

       •   District personnel assigned a useful life of 100 years to a comfort
           station at J. Percy Priest Dam, Tennessee. Because the comfort station
           was classified as a building, the DoD FMR requires a useful life of
           40 years.
       •   District personnel assigned a useful life of 100 years to a parking area
           at Bonneville Dam, Oregon. Because the parking area was classified
           as an “other structure,” the DoD FMR requires a useful life of
           20 years.

       •   A sewage system at Lake Shelbyville, Illinois, had a useful life of
           50 years. Because the structure was classified as a utility, the
           DoD FMR requires a useful life of 20 years.

        USACE-Unique Structures. USACE has structures, such as dams, locks,
floodgates, and power plants, that are unique to the organization and its DoD
mission. Engineer Regulation (ER) 37-2-10, chapter 31, Appendix A,
“Accounting Treatment for Multiple-Purpose Project,” April 1994, provides
maximum useful life periods for these structures. For USACE-unique structures,
USACE should have obtained a waiver from the Office of the Under Secretary of
Defense (Comptroller) for exclusion from following the DoD FMR useful life
tables. Despite the lack of a waiver, we determined whether USACE used the


                                    11
useful lives in ER 37-2-10 for USACE-unique structures. District personnel did
not assign the correct useful lives to 79 USACE-unique structures. For example,
a dam at Yatesville Lake, Kentucky, and a spillway at Gilham Lake, Arkansas,
were both assigned a useful life of 50 years in CEFMS, even though ER 37-2-10
assigns a useful life of 100 years for both structures. District personnel could not
justify assigning shorter useful lives.

        Consistent Implementation of Useful Life Policies. USACE districts
did not consistently follow the useful life policies in ER 37-2-10 and the
DoD FMR. Structures with similar characteristics were being depreciated over
different useful lives. Each district had the ability to establish useful lives
contrary to policy without justification, as demonstrated by the following
examples.

       •   Dams in the Tulsa and St. Louis Districts were capitalized at 100 years
           in accordance with ER 37-2-10. Similar dams in the Fort Worth and
           Huntington Districts were capitalized over useful lives of 40 to
           50 years. However, the districts could not provide us with
           documentation to support designating useful lives that were shorter
           than specified in ER 37-2-10.

       •   Parking lots at the Huntington District were capitalized at 20 years in
           accordance with the DoD FMR. However, similar parking lots at the
           Vicksburg and Little Rock Districts were capitalized at 50 and
           100 years, respectively.

Because CEFMS did not automatically populate the useful life field based on the
type of structure, district personnel could easily deviate from policy. Further,
USACE management did not monitor the establishment of useful lives to ensure
consistent application. To ensure more uniformity, USACE should develop a
system change within CEFMS that would tie approved useful life tables to the
property category codes assigned to different types of structures.

        Conclusion. USACE should develop and publish a useful life policy that
complies with DoD policy and establish useful lives for USACE-unique
structures. To ensure the application of consistent useful lives, USACE should
determine the feasibility of developing a system change in CEFMS that would
control the establishment of useful lives based on the approved useful life tables.
The system could allow deviations that are justified and supported.
Depreciation Calculation. Depreciation was not calculated correctly for
141 sampled structures that otherwise had accurate book costs, placed-in-service
dates, and useful lives. As a result, the book values of the structures were
misstated by $29.6 million. Some of these misstatements were caused when the
depreciation by feature code in COEMIS was allocated to individual structures in
CEFMS as part of the conversion process. The methodology used by USACE did
not accurately spread the depreciation to each of the structures associated with the
feature code. As a result, when we calculated straight-line depreciation and
compared results with the accumulated depreciation amounts recorded in
CEFMS, we identified differences. Some of these differences were also identified
in the districts’ depreciation variance reports. The variance reports identified
anomalies in the depreciation account by comparing amounts recorded in CEFMS
with the straight-line computation of depreciation. If used, variance reports serve


                                     12
    as a control to ensure that the correct amount of accumulated depreciation is
    recorded in CEFMS. However, district personnel did not properly calculate
    straight-line depreciation once an addition or betterment was made to a structure.
    USACE needs to periodically review and reconcile the districts’ depreciation
    variance reports and develop a report that could be used to validate the
    accumulated depreciation recorded in CEFMS for structures with additions and
    betterments.


USACE Corrective Actions
    Although USACE has begun to resolve the problems we identified, work remains
    to fully correct the issues. USACE published Engineer Circular (EC) 405-1-2,
    “Real Estate - Project Inventory Management, Accountability and
    Documentation,” March 1, 2004, to create consistency with the accountability and
    valuation of structures. EC 405-1-2 was open for comment within USACE for
    about one year. Subsequently, the circular will be updated and reissued as
    chapter 16 of ER 405-1-12, “Real Estate Handbook,” November 20, 1985. In
    July 2004, USACE provided its districts with Information Paper No. 10,
    “Buildings and Other Structures,” which addressed the corrective actions needed
    to resolve many of the issues identified in this report. USACE personnel also
    began to draft new useful life policy for inclusion in ER 37-1-30, “Financial
    Administration Accounting and Reporting,” September 30, 2002.
    We reviewed the status of corrective actions as of the end of FYs 2003 and 2004,
    and as of the end of first quarter of FY 2005. Limited corrective actions were
    completed as of September 30, 2004. USACE districts made a more concerted
    effort in FY 2005 to resolve errors. Table 4 shows the progress in correcting the
    errors in the sampled structures.

                         Table 4. Remaining Sample Errors
                            Existenc               Book       Placed-in-     Useful
        Date of Data                    Rights
                               e                    Cost     Service Date     Life
         Reviewed                       Errors
                             Errors                Errors       Errors       Errors
       June 30, 2003          163         208        61          147           584

    September 30, 2003        161         197        61          125           581

    September 30, 2004         86         175        45          122           505

     December 31, 2004         53         120        37          113           210


    In May 2005, USACE sponsored a workshop in which representatives from each
    district were invited to attend. The districts were broken down into regional
    teams and empowered to help correct deficiencies within the districts. During the
    workshop, we briefed the regional teams on the potential audit findings and how




                                        13
    to overcome those deficiencies. The workshop also provided USACE with an
    opportunity to gain consistency in accounting procedures related to real property.


Summary
    USACE assertions as to the existence of and its rights to Civil Works structures
    were inaccurate. These errors, along with problems recording accurate book
    costs, establishing correct placed-in-service dates and useful lives, and accounting
    for accumulated depreciation, caused the book value of structures to be materially
    misstated on the USACE, Civil Works Balance Sheet as of June 30, 2003.
    Cumulatively, the problems caused the net book value of buildings and other
    structures to be overstated by between $3.3 billion and $5.5 billion. (See
    Appendix E for sampling projections.) This misstatement exceeds the materiality
    threshold generally established for financial statement audits. Additional
    uncertainty exists as to the accuracy of the book value of structures because
    USACE did not have documentation to support between $0.7 billion and
    $2.9 billion of the reported book value of structures as of June 30, 2003.
    Although USACE has begun to resolve the problems identified in this and two
    other reports in this series of audits, further action is required. USACE must
    validate the implementation of the requirements in the MOA and Information
    Paper No. 10, update USACE guidance, provide training to district personnel, and
    ensure consistent implementation of the new policies and procedures throughout
    USACE to prevent a reoccurrence of the problems that caused the misstatements.


Recommendations and Management Comments
    A. We recommend that the Chief of Engineers, U.S. Army Corps of
    Engineers:

          A.1. Validate the implementation of the requirements contained in
    the Memorandum of Agreement, dated June 9, 2004, at each district. At a
    minimum, ensure that district offices:
                  a. Reconstruct the conversion spreadsheets for Cooper Dam
    and Ray Roberts Lake, Richard B. Russell Dam, Youghiogheny Lake and for
    any untested project sites that do not have conversion spreadsheets that
    comply with the requirements in the Memorandum of Agreement.

                   b. Obtain additional supporting documentation for any
    structures initially recorded in the Corps of Engineers Financial
    Management System without a fully supported book cost. Expense the
    unsupported differences.

                  c. Maintain documentation in a readily available location for
    the required retention period.

    Management Comments. The Commander of USACE concurred and stated that
    the updated Information Paper No. 10 addresses the requirements of the MOA for
    acceptable supporting documentation and retention policies. He also stated that


                                        14
newly established regional teams will review the reconstruction of the conversion
spreadsheets and validate corrective actions taken by USACE districts by
October 31, 2005.

        A.2. Direct a review of all book costs for buildings and other
structures to ensure that only those costs needed to bring the assets to a
condition and location suitable for its intended use are capitalized. Expense
any maintenance and repair costs or costs that did not improve or extend the
useful life of the building or other structure.

Management Comments. The Commander of USACE concurred and stated that
each district will review all structures to ensure that the appropriate costs are
capitalized. Regional teams will validate that the reviews are completed by
October 31, 2005.

       A.3. Direct district resource management offices to verify that the
placed-in-service dates in the Corps of Engineers Financial Management
System accurately reflect the dates the structures were complete and
available for use. At a minimum, these reviews should ensure that the date
recorded in the Corps of Engineers Financial Management System is
supported by the conversion spreadsheet or the completion date on the
Engineer Form 3013.

Management Comments. The Commander of USACE concurred and stated that
the updated Information Paper No. 10 provides the process that districts should
utilize to verify the placed-in-service dates for all structures. He also stated that
regional teams will validate districts compliance by October 31, 2005.

       A.4. Perform and document a comparison of the month available for
service method and the midyear convention method of commencing
depreciation. Determine the feasibility of implementing the midyear
convention method if determined to be more beneficial.

Management Comments. The Commander of USACE concurred and stated that
USACE headquarters had completed a study of the two methods and determined
that the existing method was compliant with regulations and will be maintained.
He also stated that USACE will focus on complying with the month available for
service method.

Audit Response. Management comments are responsive. We agree that the
month available for service method is a valid depreciation method. However,
USACE must ensure that the correct placed-in-service date is entered in CEFMS
and ensure that districts understand the importance of using the date of
completion on the conversion spreadsheet or Engineer Form 3013 as the placed-
in-service date. For newer structures, the resource management personnel need to
verify that the date of completion is supported by third party documents.




                                     15
        A.5. Develop a consistent and enforceable useful life policy for all
buildings and other structures. Once developed, provide detailed training
for establishing useful lives within the Corps of Engineers Financial
Management System to district personnel and monitor compliance. At a
minimum, the policy should:

             a. Ensure that useful lives in Corps of Engineers Financial
Management System are consistent for all buildings and other structures
covered by the DoD Financial Management Regulation useful life tables.

              b. Establish useful lives for all unique structures for which a
waiver is obtained from the Under Secretary of Defense (Comptroller).

            c. Ensure that useful lives are consistently implemented and
that documentation exists to justify any deviations from useful life policies.

Management Comments. The Commander of USACE concurred and stated that
Issue Paper No. 10 was updated to provide guidance on establishing useful lives
that comply with the DoD FMR and the USACE-unique useful life table.
Information Paper No. 10 also includes requirements that must be met in order to
deviate from the table, as well as how to document any deviations. The
Commander stated that USACE will submit a waiver to the Under Secretary of
Defense (Comptroller) for its list of unique items. He also stated that CEFMS has
been updated to reflect the new useful life policies. Districts will complete a 100
percent review to ensure existing assets comply with the new requirements by
October 31, 2005.

       A.6. Determine the feasibility of developing a system change in the
Corps of Engineers Financial Management System that would automatically
assign useful lives based on approved useful life tables.

Management Comments. The Commander of USACE concurred and stated that
the CEFMS Development Team is evaluating the potential effect of the system
change. Based on the assessment, USACE headquarters will make a decision on
implementation by March 31, 2006.
       A.7. Review and reconcile the depreciation variance report on a
monthly basis. Develop a report to calculate depreciation variances for
buildings and other structures with additions and betterments.

Management Comments. The Commander of USACE concurred and stated that
a review of the calculations in the depreciation variance report determined that the
depreciation variance report correctly calculates depreciation for structures with
additions and betterments.

Audit Response. Management comments are responsive. USACE headquarters
must ensure that districts reconcile the report on a monthly basis using the
depreciation variance report.




                                    16
       A.8. Correct the unresolved errors identified in the memorandums
we sent to district commanders that detailed the results of our work.

Management Comments. The Commander of USACE concurred and stated that
each district which received a memorandum has corrected all the identified errors.

       A.9. Publish updated guidance that provides districts with detailed
procedures to eliminate the valuation errors identified in this report. Once
published, ensure that all personnel involved with asset management are
trained on the updated procedures. Specifically:

              a. Update Engineer Circular 405-1-2 to provide adequate
guidance to ensure the accuracy of and support for a structure’s book cost,
placed-in-service date, and useful life.

Management Comments. The Commander of USACE concurred and stated that
Engineer Circular 405-1-2 will be updated and revised to include the guidance in
Information Paper No. 10 by March 31, 2006.

              b. Update Engineer Regulation 37-1-30 to provide resource
management personnel guidance that formalizes the corrective actions
contained in Information Paper No. 10.

Management Comments. The Commander of USACE concurred and stated that
ER 37-1-30 would be updated and revised to include all the guidance in
Information Paper No. 10 and other related information papers by March 31,
2006.




                                    17
           B. Completeness of Buildings and Other
              Structures Accounts
           USACE failed to report 147 structures correctly, with an estimated net
           book cost of $3.7 million and a net book value of about $1 million, on its
           Civil Works Balance Sheet as of June 30, 2003. During completeness
           testing, we identified 84 structures that were not capitalized and
           43 structures that were not retired as of June 30, 2003. Additionally,
           districts failed to consistently capitalize structures that met the USACE
           capitalization threshold and establish property identification codes. The
           problems occurred because USACE personnel did not follow procedures
           or lacked sufficient guidance to ensure that:

                   •   physical inventories were accomplished correctly and
                       discrepancies were adequately addressed,

                   •   districts consistently implemented capitalization policies, and

                   •   structures with a zero book value were assigned the proper
                       placed-in-service dates and useful lives.

           As a result, the balances reported in the buildings and other structures
           accounts were inaccurate and further misstated the general PP&E reported
           on the USACE, Civil Works Balance Sheet.


USACE Policies and Systems
    Inventories. ER 405-1-12 requires that USACE real estate personnel perform
    real property inventories at least once every three years. The regulation also
    requires that inventory results be reconciled with the financial accounting system.
    The regulation states that real property with an inherent useful life of two or more
    years will be capitalized if it meets the capitalization threshold. General PP&E is
    recorded at cost, including all costs incurred to bring the general PP&E structure
    to a form and location suitable for its intended use.

    EC 405-1-2 provides updated guidance for recording and inventorying real
    property. EC 405-1-2 requires the real property accountability officer to assign a
    property identification code to each item on the inventory. To facilitate physical
    inventories of structures, the property identification code must be shown on the
    structure, pictures of the structure should be taken and made available, and the
    inventory lists should contain brief descriptions of the structures. According to
    EC 405-1-2, inventory listings should include structures based on a common
    sense approach. For example, district personnel should include all structures that
    have a roof as a separate item on the inventory. Items such as camping areas,
    picnic areas, and other items of significant costs should be included on the
    inventory with a brief description. However, items such as flagpoles, signs,
    streetlights, and trashcans should not be listed separately. Instead, their costs
    should be included with the associated item on the inventory.




                                         18
    Real Property System. USACE uses the Real Estate Management Information
    System (REMIS) as its accountability system to account for and maintain its real
    property. It is within REMIS that the individual property identification codes are
    created. The property identification code information is then entered into CEFMS
    when the asset is ready to be placed in service.

    Capitalization Threshold. USACE issued a memorandum, “Revised Policy for
    Financial Capitalization Threshold of Civil Works Buildings and Structures,”
    August 12, 2003, that implemented a $25,000 capitalization threshold for all Civil
    Works structures other than Power Marketing Agency and revolving fund
    structures. Before the change, the capitalization threshold was $0 for all
    structures. Once the policy was issued, USACE expensed and removed from
    CEFMS all Civil Works structures, other than Power Marketing Agency and
    revolving fund structures, with a book cost of less than $25,000.


Completeness Testing
    At the 43 field sites visited, USACE failed to properly record at least 147
    structures with a net book cost overstatement of $3.7 million as of June 30, 2003.
    To determine the accuracy of the financial data recorded in CEFMS in the
    buildings (GLAC 1730) and other structures (GLAC 1740) accounts, we
    performed several completion tests. We judgmentally selected structures located
    at 43 field sites and determined whether USACE personnel had established a
    property identification code in REMIS and correctly capitalized or expensed the
    associated cost of each structure in CEFMS (reverse inventory). We also
    determined whether some judgmentally selected structures reported in CEFMS,
    which were not part of the statistical sample, physically existed at the field sites.
    Further, we determined whether structures reported at a $0 book value were
    accurately valued and whether USACE districts appropriately removed from
    CEFMS the property identification codes associated with the structures that fell
    below the $25,000 capitalization threshold. Table 5 shows the number and book
    cost misstatement of the property identification codes that failed completeness
    testing by type of completeness test conducted.

                     Table 5. Completeness Test Failures
                                           Book Cost     Book Value
                              Number of Misstatement
       Completeness Test                                 Misstatement
                               Structures (in millions)  (in millions)
     Reverse inventory               84        $(1.5)             $0*
     Physical inventory                  43                5.4                 4.3
     Capitalization threshold              6             (0.2)               (0.1)
     Zero book value                     14                  0               (3.2)
      Total                             147               $3.7               $1.0
     * We were unable to obtain information or documentation from USACE that would
     allow us to determine the book value.



                                           19
Reverse Inventory
USACE did not maintain accurate inventories in REMIS at 15 of the 43 field sites
visited. Our reverse inventories identified 84 structures that had not been
established in REMIS. Because property identification codes were not established
for the 84 structures, they were not correctly recorded in GLACs 1730 and 1740
in CEFMS as of June 30, 2003. Project managers had either failed to notify
district real estate and resource management personnel of completed structures, or
district personnel failed to properly conduct inventories and reconcile the results
with the information in CEFMS. For example, 60 structures at Harry S. Truman
Lake, Kansas, were neither recorded on the REMIS inventory list nor placed in
service in CEFMS. District personnel estimated that the structures were valued at
over $1.5 million. During our visit in October 2003, district real estate personnel
informed us that they had established these structures in REMIS and were in the
process of preparing Engineer Forms 3013 and found-on-works assessments for
the structures. However, we confirmed that the structures were being used for
their intended purpose prior to June 30, 2003.

Physical Inventory
Our physical inventories at 39 of the 43 field sites identified 43 property
identification codes in CEFMS that did not represent structures that physically
existed as of June 30, 2003. USACE personnel had not removed from CEFMS
structures that no longer existed, duplicated other structures, were never
constructed, or were misclassified as structures. The following are examples of
physical inventory errors.

       •   At Canyon Lake located near Seguin, Texas, three structures had been
           destroyed by floodwaters in 1987 and 2002. As of March 2004, all
           three of the structures remained in CEFMS. District personnel had not
           retired the destroyed structures. As a result, the book cost of the
           structures was overstated by $128,312.

       •   Six property identification codes at Lake Shelbyville, Illinois,
           represented land and land improvement costs that St. Louis District
           personnel erroneously capitalized as structures. As a result, USACE
           overstated the book cost of the other structures account by $927,667.
Structures Removed Under the Capitalization Threshold
USACE personnel removed 17,760 structures with a book value of $63.3 million
from CEFMS when USACE increased the capitalization threshold from $0 to
$25,000. To determine whether USACE appropriately expensed the 17,760
structures, we selected and reviewed 267 property identification codes at 27 of the
43 field sites visited. USACE personnel incorrectly removed 6 of the 267
property identification codes from CEFMS because district personnel had
improperly recorded components of principal structures as separate property
identification codes. For example, property identification code ARLD-48849,
listed in CEFMS as gate hoist machinery, was one of 32 integral structures that
were capitalized separately from the main lock and dam structure at Arkansas
Lock and Dam 13, Arkansas. The costs of these integral structures were
erroneously removed when the capitalization threshold was increased from $0 to
$25,000. The components were integral to the principal structure and should have


                                    20
     remained capitalized regardless of their value. As a result, the book cost of the
     overall lock and dam was understated by $416,929.05 and the book value was
     understated by $127,593.38 as of June 30, 2003.

     USACE Real Estate Directive No. 13, “Reconciliation of Real Property Inventory
     Records with Accounting General Ledger/Cost Records,” May 1994, required
     district personnel to assign a single property identification code to principal
     structures, such as dams and locks. ER 37-2-10, chapter 31, lists principal items
     and states that a number of components are included as integral portions to the
     principal structure. However, some of the districts assigned individual property
     identification codes to the principal structures as well as to the structures’
     components. USACE did not have a clear policy on how to capitalize the
     principal structures and integral components.

     Structures With Zero Book Value
     USACE district personnel had erroneously fully depreciated some structures
     because the structures’ useful lives or placed-in-service dates were incorrectly
     established. To determine whether the 6,924 structures that had a zero book value
     as of June 30, 2003, were accurately recorded in CEFMS, we judgmentally
     selected 194 structures at 23 field sites for review. We determined that 14 of the
     194 structures were erroneously recorded at a zero book value because their
     useful lives or placed-in-service dates were incorrectly established. For example,
     the book costs of three structures at Oahe Lake, North Dakota, were understated
     by $460,064.03 because two structures were assigned incorrect placed-in-service
     dates and the third structure was assigned an inaccurate useful life. During our
     review of information in CEFMS, we identified that most of the structures at three
     districts that we did not visit (Los Angeles, Norfolk, and New York) had been
     fully depreciated. We question whether all the structures that met the
     capitalization threshold had been recorded in CEFMS. USACE should review
     structures recorded with zero book value and ensure that the structures are
     properly valued after making any necessary adjustments in the useful lives and
     placed-in-service date required by new USACE guidance. USACE should give
     special attention to any district reporting that all its buildings and other structures
     are fully depreciated.


Consistency in Establishing Property Identification Codes
     USACE did not enforce consistent policies among its districts on how to identify
     structures, when to group like structures, and how to accurately describe
     structures when creating property identification codes in REMIS. Without clear
     policy, USACE had limited assurance that districts capitalized structures
     consistently and CEFMS contained a complete accounting of structures. Further,
     USACE did not ensure that each property identification code represented a
     tangible asset that could be easily identified during an inventory as required by
     EC 405-1-2. USACE districts had inconsistent methods for grouping and
     identifying structures within CEFMS. In addition, during the conversion process,
     some districts erroneously allocated costs that could not easily be identified to
     property identification codes entitled “all other components” or “miscellaneous



                                           21
power plant equipment.” Rather than creating a separate property identification
code, the costs should have been either allocated to identifiable structures or
expensed.

Grouped Structures. District personnel inconsistently assigned a single property
identification code to groups of structures. Because USACE personnel grouped
structures together, individual structures with book costs below the capitalization
threshold erroneously remained in CEFMS. USACE did not have a clear policy
for capitalizing groups of structures. As a result, district personnel were
inconsistent in how they capitalized structures; similar structures that were being
capitalized in one district were being expensed in other districts. The following
are examples of assets grouped incorrectly.

       •   Seventy-three gates located along the Tennessee Tombigbee River,
           Divide Cut, Alabama, were recorded under one property identification
           code with a book cost of $89,180.12. These assets were not in the
           same geographic location. The cumulative book costs of the
           73 structures exceeded the capitalization threshold. However, the
           book cost of each of the individual structures was below the
           capitalization threshold. District personnel should have recorded these
           structures separately or grouped them by geographic location, such as
           within the same recreation area.

       •   Structures at Cochiti Lake, New Mexico, were listed separately on
           inventory records. District personnel had removed 157 campsites and
           picnic areas because the cost of each structure was below the
           capitalization threshold. At other field sites we visited, such as
           Harry S. Truman Lake, Missouri, similar structures, such as camp
           sites, were grouped together and capitalized as a single property
           identification code. If the structures at Cochiti Lake had been
           combined into one property identification code, the costs of the
           structures would have exceeded the capitalization threshold and been
           recorded in CEFMS.

USACE management needs to clarify guidance in EC 405-1-2 for capitalizing
groups of structures. Similar structures should only be grouped together and
considered for capitalization as a single property identification code when they
are within the same geographic area. For example, costs for constructing
recreational campsites within a specific area could be combined and capitalized
when the total book cost exceeds the capitalization threshold. Once the policy is
clarified, USACE management must ensure that it is implemented consistently by
its districts.

Structure Descriptions. USACE personnel did not clearly describe some
structures on the REMIS inventory list and in CEFMS. For example, USACE
personnel described five property identification codes with a book cost of
$12.2 million at the John Day Dam, Oregon, as “components not listed
elsewhere” or as “miscellaneous accessories.” However, no specific physical
structure could be identified; therefore, these costs should have been either
distributed to actual structures or expensed. USACE must take steps to ensure
that all property identification codes reported in the buildings and other structures
accounts represent an actual physical structure that can be inventoried.
Otherwise, USACE district personnel should remove the property identification


                                     22
    codes from the REMIS inventory list. Inventory lists should also provide
    adequate descriptions of each individual structure to ensure accurate physical
    inventories and financial records. Furthermore, EC 405-1-2 requires that all
    structures have the property identification code affixed to the structure for
    identification purpose. The use of modern technology, such as Global Positioning
    System technology, could serve to help identify USACE structures.

    Conclusion. USACE needs to improve its inventory management practices to
    ensure proper accountability and financial management of structures. USACE
    management must ensure that districts properly perform inventories at the field
    sites at least once every three years. CEFMS should be adjusted to reflect
    inventory results. District personnel must ensure that property identification
    codes represent tangible structures that can be easily identified during the
    inventory process. Use of modern technology to identify structures should be
    explored and implemented. USACE should develop a policy on how property
    identification codes are established, including when structures can be grouped,
    and ensure consistent implementation among districts.


Summary
    The USACE buildings and other structures accounts were not complete. The
    147 errors resulted in a $1.0 million net book value understatement of buildings
    and other structures accounts. USACE must correct the 147 completeness errors
    and perform a one-time, wall-to-wall inventory of structures to identify and
    correct similar errors and ensure that balances for buildings and other structures
    accounts are accurate and complete.


Recommendations and Management Comments
    B. We recommend that the Chief of Engineers, U.S. Army Corps of
    Engineers:
            B.1. Immediately resolve the 147 completeness errors identified in the
    district memorandums.

    Management Comments. The Commander of USACE concurred and stated that
    the 147 completeness errors were corrected.

           B.2. Direct districts to complete a one-time, wall-to-wall inventory of
    the structures at the project sites. Adjust the Corps of Engineers Financial
    Management System to reflect inventory results.

    Management Comments. The Commander of USACE concurred and stated that
    guidance to conduct a complete inventory of all real property within USACE was
    in Information Paper No. 10. Regional teams will ensure compliance by
    October 31, 2005.




                                        23
        B.3. Develop a policy for the proper capitalization of principal
structures and integral components. Ensure that integral components
established as separate property identification codes remain capitalized as
part of the principal structure.

Management Comments. The Commander of USACE concurred and stated that
Information Paper No. 10 will contain guidance on the capitalization of principal
structures and integral components until formal guidance can be revised. USACE
districts are currently identifying principal structures and integral components and
are ensuring that each is appropriately barcoded and capitalized.

         B.4. Review structures recorded with zero book value and ensure that
the structures are properly valued after making any necessary adjustments
in the useful lives and placed-in-service date required by new U.S. Army
Corps of Engineers guidance. Give special attention to any district reporting
all its buildings and other structures as fully depreciated.

Management Comments. The Commander of USACE concurred and stated that
a full asset review of USACE real property is underway. Regional teams will
validate compliance by October 31, 2005.

       B.5. Direct district personnel to review their structures in the Corps
of Engineers Financial Management System and ensure that:

               a. Grouped structures assigned to a single property
identification code comply with Engineer Circular 405-1-2, and any
exceptions are justified. Assign individual property identification codes to
individual structures that have been erroneously grouped together. If the
individual book cost of the formally group structures falls below the $25,000
threshold, remove the structures from the financial records.

Management Comments. The Commander of USACE concurred and stated that
structure grouping procedures are being evaluated and guidance will be issued to
ensure that all asset groups are valid. Structures that do not meet the
capitalization threshold will be removed from CEFMS by March 31, 2006.
               b. Each property identification code represents a tangible
structure. For property identification codes that represent unassigned costs,
allocate the costs to the proper structures or expense them.

Management Comments. The Commander of USACE concurred and stated that
the full asset review of USACE real property will ensure compliance with the
guidance in Information Paper No. 10. Regional teams will validate compliance
by March 31, 2006.




                                    24
             c. Structures can be positively identified by either placing the
property identification on the structure or through use of alternative
methods, such as Global Positioning System technology.

Management Comments. The Commander of USACE concurred and stated that
each district is identifying structures using all available means, including Global
Positioning System technology. Identification of structures will be completed by
October 31, 2005.




                                    25
Appendix A. Scope and Methodology
            USACE provided us with the universe of property identification codes
            (structures) contained in CEFMS that supported the amounts reported on the
            June 30, 2003, Civil Works Balance Sheet. We statistically selected
            1,211 property identification codes for review from the universe of 32,571
            structures, valued at $16.7 billion. The 1,211 sample structures were located at
            43 field sites within 18 USACE districts. We performed this examination from
            October 2003 through May 2005 in accordance with generally accepted
            Government auditing standards. See Appendix E for the statistical sampling
            methodology.

            From October 2003 through April 2004, we visited the 43 field sites. We
            developed procedures to test USACE management assertions about structures. To
            determine the accuracy of the financial data, we designed and conducted tests to
            verify USACE assertions related to existence, rights, and valuation of Civil
            Works structures. In DoD IG Report No. D-2005-035, we identified 164 sampled
            structures that failed existence testing. In DoD IG Report No. D-2005-046, we
            identified 208 sampled structures that failed rights testing. The book values of
            365 of the 372 sampled structures A-1 were fully misstated because they failed the
            existence or rights testing; therefore, we did not perform valuation testing on
            these structures. We determined the dollar value of any misstatement associated
            with the remaining 846 structures based on our physical observations, discussions
            with USACE personnel, and reviews of the available supporting documentation.
            We compared what was recorded in CEFMS to physical observations and
            available documentation to determine whether the sampled structures, as of June
            30, 2003 were:

                     •   recorded at the correct book cost,

                     •   placed in service on the correct date,

                     •   assigned useful lives according to DoD policy and USACE guidance,
                         and

                     •   recorded at the correct book value.

            To test the completeness assertion, we performed several completion tests. We
            judgmentally selected structures located at the 43 field sites we visited and
            determined whether USACE personnel had established a property identification
            code in REMIS and correctly capitalized or expensed the associated cost of each
            structure in CEFMS (reverse inventory). We also determined whether some
            judgmentally selected structures reported in CEFMS, which were not part of the
            statistical sample, physically existed at the field sites. In addition, to test
            completeness, we judgmentally selected 194 structures at 12 of the 43 field sites
            that had a zero book value in CEFMS. We reviewed the documentation for each
            structure and determined whether the placed-in-service date and useful life were
            accurately recorded in CEFMS. Finally, at 27 field sites, we tested completeness
            by judgmentally selecting and reviewing 267 property identification codes that

A-1
      Seven assets failed existence and rights testing.



                                                          26
had been removed from CEFMS after USACE raised the capitalization threshold
to $25,000. We determined whether the USACE decision to expense the
structures was correct.

To test for presentation and disclosure, we reviewed the errors found in the
sample and determined the effect on the June 30, 2003, Civil Works Balance
Sheet and related note disclosures. We periodically provided our audit results to
the DoD OIG audit team that was responsible for preparing DoD IG Report
No. D-2005-016, “Independent Auditor's Report on the Fiscal Year 2004
U.S. Army Corps of Engineers, Civil Works, Financial Statements,”
November 8, 2004.

To determine progress in correcting errors that caused the buildings and other
structures accounts to be misstated as of June 30, 2003, we reviewed CEFMS
information for the sampled structures as of September 30, 2003;
September 30, 2004; and December 31, 2004.

Use of Computer-Processed Data. Although we relied on computer-processed
data from CEFMS and REMIS, we did not evaluate the adequacy of the systems’
general and application controls. Previous audits have identified general and
application control weaknesses and questioned the reliability of the CEFMS data.
We were able to reconcile the USACE trial balances as of June 30, 2003, and
September 30, 2003, for the buildings and other structures accounts within
CEFMS by property identification code for the corresponding periods. We
evaluated data reliability related to the sample items we reviewed by comparing
information recorded in CEFMS with source documentation and physical
observations at USACE district and field offices.

Use of Technical Assistance. We obtained assistance from the Operations
Research Branch, Quantitative Methods Division, DoD OIG to determine a
statistical sampling plan and calculate the statistical projections. See Appendix E
for the statistical sampling methodology.

Government Accountability Office High-Risk Area. The GAO has identified
several high-risk areas in DoD. This report provides coverage of the Defense
Financial Management and Federal Real Property high-risk areas.




                                    27
Appendix B. Prior Coverage
    During the last 5 years, the GAO and the DoD IG have issued 12 reports
    discussing USACE General Property, Plant and Equipment. Unrestricted GAO
    reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
    DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.


GAO
    GAO Report No. GAO-03-42, “Financial Management: Survey of Capitalization
    Threshold and Other Policies for Property, Plant, and Equipment,” October 15,
    2002


DoD IG
    DoD IG Report No. D-2005-051, “Independent Examination of the Land Assets
    at the U.S. Army Corps of Engineers, Civil Works,” April 6, 2005

    DoD IG Report No. D-2005-046, “Independent Examination of the Rights to
    U.S. Army Corps of Engineers Buildings and Other Structures,” March 25, 2005

    DoD IG Report No. D-2005-035, “Existence of U.S. Army Corps of Engineers
    Buildings and Other Structures,” February 15, 2005

    DoD IG Report No. D-2005-016, “Independent Auditor’s Report on the Fiscal
    Year 2004 U.S. Army Corps of Engineers, Civil Works, Financial Statements,”
    November 8, 2004

    DoD IG Report No. D-2005-008, “Assessment of the U.S. Army Corps of
    Engineers, Civil Works, FY 2004 Beginning Financial Statement Balance of
    Construction-In-Progress,” October 28, 2004

    DoD IG Report No. D-2004-063, “Controls Over U.S. Army Corps of Engineers
    Buildings and Other Structures,” March 26, 2004

    DoD IG Report No. D-2004-059, “Assets Depreciation Reported on the
    U.S. Army Corps of Engineers FY 2002 Financial Statements,” March 16, 2004




                                       28
DoD IG (cont’d)
    DoD IG Report No. D-2004-032, “Independent Auditor's Report on the
    U.S. Army Corps of Engineers, Civil Works, Fiscal Year 2003 Principal Financial
    Statements,” December 3, 2003

    DoD IG Report No. D-2004-017, “Reliability of Construction-in-Progress in the
    U.S. Army Corps of Engineers, Civil Works, Financial Statements,” November 7,
    2003

    DoD IG Report No. D-2003-123, “Corps of Engineers Equipment Reporting on
    Financial Statements for FY 2002,” August 20, 2003

    DoD IG Report No. D-2003-043, “Independent Auditor's Report on the
    U.S. Army Corps of Engineers, Civil Works, Fiscal Year 2002 Principal Financial
    Statements,” January 6, 2003




                                      29
Appendix C. Glossary
   Accumulated Depreciation. Accumulated depreciation is the amount of
   depreciation expense that has been added over a period of time and calculated
   from the placed-in-service date of the asset.

   Acquisition (Book) Cost. Acquisition (book) cost is the original purchase,
   construction, or development cost, net of (less) any purchase discounts. The cost
   of an asset shall include all costs incurred to bring the asset to a form and location
   suitable for its intended use. It includes amounts paid to the prior owner or
   vendor, additional expenditures to place the asset in service (such as legal and
   recording fees, supervision and administration, engineer and design, interest
   during construction, labor, and transportation costs), or the fair market value of
   property acquired by transfer, trade-in, found on works, or donation.

   Book Value. Book value is the book (acquisition) cost less accumulated
   depreciation charged on the asset.

   Building. A building is a facility constructed on a space of land, covered by a
   roof, enclosed by walls, and usually with flooring.

   Capitalization Threshold. The capitalization threshold is the dollar value at
   which costs incurred are added as capital expenditures to the placed-in-service
   accounts. All real property above the threshold, with an inherent useful life of 2
   or more years, is capitalized.

   Feature. A feature is a group of assets grouped to facilitate accounting control.

   Found on Works. Found on works are assets discovered during physical
   inventories that have not been placed in service. A fair market value must be
   established for a found-on-works asset.

   Improvement. An improvement is a change to an existing asset that results in an
   increase of efficiency, durability, or capacity of the asset or a change in the asset’s
   useful life.

   Materiality. Materiality is the magnitude of an omission or misstatement of an
   item in a financial report that, in light of surrounding circumstances, makes it
   probable that the judgment of a reasonable person relying on the information
   would have been changed or influenced by the inclusion or correction of the item.
   Planning materiality is the preliminary estimate of materiality in relation to the
   financial statements taken as a whole. Design materiality is the portion of
   planning materiality allocated to the line item and test materiality is the
   materiality used by the auditors in testing a specific line item. The design and test
   materiality were one third of the planning materiality.

   Placed-in-Service Date. The placed-in-service date is the date that an asset is
   physically complete and available for use. Assets are recognized when the title
   passes to the acquiring entity or when the asset is delivered to the entity or to an
   agent of the entity. It defines the start of the capitalization and depreciation
   expense process.



                                         30
Property Identification Code. A property identification code is a number that
links the REMIS database with CEFMS. The property identification code is
system-generated by REMIS when information about a new asset is entered and
committed.

Property Phase. A property phase is a stage in an asset’s life cycle. Property
phases include construction in progress, placed in service, retirement, and
disposal over the course of the asset’s life.

Revetment. A revetment is a facing (as of stone or concrete) to sustain an
embankment.

Straight-Line Depreciation Method. A straight-line depreciation method
allocates the book cost of an asset equally over the course of the asset’s useful
life.

Structure. A structure is a real property facility that is classified as other than
land, a building, or a utility system.

Useful Life. Useful life is the estimated time period for an asset to provide its
intended service. The concept recognizes the deterioration of items as they age.

Utility System. A utility system is a network that provides a service or a
commodity, such as water, electricity, or sewage systems, necessary to keep a
facility operational.




                                      31
Appendix D. Memorandum of Agreement
   The MOA documented an agreement on how to support the acquisition costs and
   placed-in-service dates for structures. The MOA also established the retention
   guidelines for the documentation. The MOA divided the structures into two
   categories for documentation purposes: structures placed in service before and
   after CEFMS implementation.

           Structures Placed in Service Before CEFMS Implementation.
   Documentation was often not available to support the acquisition costs for the
   individual structures accounted for in COEMIS. As a result, USACE and the
   DoD OIG representatives agreed that the spreadsheet used to convert USACE
   structures from COEMIS to CEFMS would be acceptable support for assets
   placed in service before CEFMS implementation. COEMIS originally tracked
   structure costs only by feature code. For example, feature code 01 was land,
   feature code 04 was dam assets, and feature code 14 was recreational structures.
   COEMIS could not individually account for or depreciate the individual
   structures. Beginning in 1994, USACE districts were directed to prepare
   conversion spreadsheets to allocate the COEMIS feature code costs to individual
   property identification codes for entry into CEFMS. Once established, the
   property identification codes were used to manage and depreciate structures.
   Each district’s real estate and resource management personnel attested to the
   accuracy of the information on the conversion spreadsheets.

            At each of the 43 sampled project sites, we verified the accuracy of the
   conversion spreadsheets by reconciling costs allocated from the COEMIS feature
   codes to the costs assigned to the individual structures originally placed in service
   in CEFMS. We also judgmentally selected 8 of the 43 sites to substantiate that
   the COEMIS amounts used for conversion were reasonably close to the amounts
   reported in the FY 1995 USACE Annual Reports to Congress. We used the
   FY 1995 USACE Annual Reports to Congress because, at that time, all USACE
   districts were still using COEMIS to account for structures. After the
   spreadsheets were validated, we accepted the placed-in-service dates and book
   costs reported on the spreadsheets as support for the original data entered in
   CEFMS. See Appendix F for a discussion of the conversion process.

           Structures Placed in Service After CEFMS Implementation. For new
   structures and improvements to structures placed in service after a district
   implemented CEFMS, the MOA states that documentation substantiating the
   acquisition costs needed to comply with the requirements of ER 405-1-12.
   Otherwise, the structures had to be appraised in accordance with DoD FMR,
   volume 4, chapter 6. To ensure sufficient source documentation existed, district
   personnel were instructed to maintain a file that contains original or electronic
   versions of original documentation that substantiated the book cost recorded in
   CEFMS.




                                        32
Appendix E. Sampling Methodology

Sampling Plan
    Sampling Purpose. The purpose of the statistical sampling plan was to test
    USACE assertions about the existence or occurrence, rights and obligations, and
    valuation or allocation of the buildings and other structures portion of the general
    PP&E line on the June 30, 2003, Civil Works Balance Sheet. The sample was
    also used to quantify the potential misstatements of the book value of the
    buildings and other structures accounts.

    Universe Representation. USACE provided a file that consisted of all property
    identification codes recorded in CEFMS and represented the cumulative dollar
    value of buildings and other structures recorded in the trial balance as of June 30,
    2003. The total population of 57,653 property identification codes had a book
    cost of about $30.7 billion and a book value of about $18 billion. After
    August 12, 2003, when USACE increased the capitalization threshold from $0 to
    $25,000 (except for revolving fund and Power Management Agency assets), we
    excluded from the population 17,801 property identification codes with a book
    cost of $130.2 million that did not meet the new capitalization threshold. We also
    removed the following from the population:
           •   6,924 property identification codes that were fully depreciated (zero
               book value), but had a book cost of $2.5 billion. We reviewed some of
               these structures as part of our completeness testing.

           •   357 property identification codes that were identified as revetment
               assets and had a book cost of about $2.1 billion and book value of
               $1.3 billion. In DoD IG Report No. D-2004-017, we recommended
               that USACE remove identifiable revetment assets from the buildings
               and other structures accounts.

    We provided the remaining population of 32,571 property identification codes
    with a book cost of $26 billion and a book value of $16.7 billion to the
    Quantitative Methods Division, DoD OIG.

    Sampling Design. We used a probability-proportional-to-size sample in two
    stages. At the first stage, the Quantitative Methods Division analysts made a
    probability-proportional-to-size selection of 60 projects. These are technically
    known as primary sampling units. The probability-proportional-to-size method
    gives each primary sampling unit (project) initially part of the sample a chance of
    selection equal to its share of some common quantitative characteristic. In this
    instance, the common quantitative characteristic was the book value of the
    project. The sample was drawn with replacements, which meant not only that the
    project’s chance of being selected related to its share of the total net book value of
    the buildings and other structures accounts balance, but also that the same project
    could be selected more than once.




                                         33
           At the second stage (within projects), the Quantitative Methods Division analysts
           determined the number of structures associated with each project. If there were
           25 or fewer structures, the sample included all the structures associated with that
           project. If there were more than 25 structures at a project, the analysts selected
           the five structures with the highest book value of record and set them in one
           stratum (technically known as the census stratum for that project). 5 The analysts
           then drew a simple random sample of the remaining structures. If a project was
           drawn more than once, the high-value census structures remained the same, but
           the analysts drew another simple random sample of the remaining structures.
           When the same project was selected more than once, some structures were
           selected for more than one primary sampling unit because of the number of
           structures available. The sample of 60 primary sampling units involved 43
           projects and 1,211 structures. When a structure was selected for more than one
           project sample, audit results related to that same structure were replicated across
           samples as necessary. This also served to slightly reduce the number of structures
           that needed to be audited.


Sampling Results
           Table E-1 identifies the statistical estimates of known misstatement and
           unsupported book value as of June 30, 2003.

                                 Table E-1. Errors in Book Value*
                                            (in billions)

        Type of Book Value Error            Lower Bound       Point Estimate       Upper Bound

        Known misstatement                    $ 3.265             $ 4.398             $ 5.531
        Unsupported                             0.721               1.823               2.924
        * Confidence level of 95 percent.


           We are 95 percent confident that $3.3 billion to $5.5 billion in the book value of
           buildings and other structures was misstated as of June 30, 2003. Also, we are 95
           percent confident that $0.7 billion to $2.9 billion in the book value of buildings
           and other structures could not be properly supported.




5
    There are two exceptions: the Richard B. Russell Dam, Georgia, and Bonneville Dam, Oregon, projects
    had six properties each with a book value of $25 million or more. The analysts included all those
    properties into the census stratum for the two projects.




                                                    34
Appendix F. COEMIS to CEFMS Conversion
            Process
   USACE districts converted their financial records from COEMIS to CEFMS from
   1994 through 1998. COEMIS tracked costs by feature codes such as land, dam,
   and recreational facilities. When USACE implemented CEFMS, the COEMIS
   costs were allocated to individual structures. USACE headquarters issued two
   memorandums: “Procedure for Reconciling Real Property Inventory With
   Accounting General Ledgers and Cost Records for Civil Works Projects,” May 9,
   1994, and “Procedures for Work Group Reconciliation of Real Property Inventory
   to Finance and Accounting Records,” June 30, 1994, to assist districts in the
   reconciliation process. The following chart displays this process.


                 Finance and                    Real estate
                 accounting                     personnel obtain a
                 personnel prepare a            complete and
                 summary of                     current inventory.
                 capitalized COEMIS             (Excludes items
                 project costs by               removed from
                 feature of work.               service.)



                  Personnel gather support based on historical data,
                  cost estimates using master plans, similar
                  structures, and the Marshall-Swift real property
                  appraisal book, in that order.




                  Real estate and finance and accounting personnel
                  assign feature cost to each item on the inventory.




                           Total every item by feature
                           and compare to finance and
                           accounting feature totals.




                                         A




                                         35
Appendix F. COEMIS to CEFMS Conversion
            Process (cont’d)

                        A




                   Are the totals   No
                      equal?
                                         Determine the percent
                                         of difference between
                                         costs.




                 Yes                     Increase the cost of
                                         inventory items by the
                                         appropriate percentage.



                 Verify data;
                 sign and date
                 the inventory.




                        36
Appendix G. District Memorandum
   We provided the 18 district commanders with a memorandum detailing the results
   of our work at each of their districts. An example of a district memorandum is in
   this appendix. Table G-1 lists the districts visited and the dates we issued the
   memorandums.

                    Table G-1. Districts Visited and Dates
                             of Memorandums
           District                     Date
           Nashville                    August 13, 2004
           Albuquerque                  September 16, 2004
           Omaha                        September 16, 2004
           Tulsa                        September 16, 2004
           Wilmington                   September 16, 2004
           Fort Worth                   October 6, 2004
           Mobile                       October 6, 2004
           Little Rock                  October 25, 2004
           Pittsburgh                   October 25, 2004
           Seattle                      October 25, 2004
           Huntington                   November 1, 2004
           Kansas City                  November 1, 2004
           San Francisco                November 1, 2004
           Vicksburg                    November 9, 2004
           Walla Walla                  December 17, 2004
           Portland                     February 22, 2005
           Savannah                     March 15, 2005
           St. Louis                    April 25, 2005




                                      37
Appendix G. District Memorandum (cont’d)




                     38
Appendix G. District Memorandum (cont’d)




                     39
Appendix G. District Memorandum (cont’d)




                     40
Appendix G. District Memorandum (cont’d)




                     41
Appendix G. District Memorandum (cont’d)




                     42
Appendix H. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Civil Works)
Commander, Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and Ranking
  Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Subcommittee on Energy and Water, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Committee on Energy and Natural Resources
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Subcommittee on Energy and Water Development, Committee on Appropriations
House Committee on Armed Services
House Committee on Resources
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          43
U. S. Army Corps of Engineers Comments




                     45
46
47
48
49
50
51
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Barbara A. Sauls
Carmelo G. Ventimiglia
George C. DeBlois
Michael Perkins
Dennis L. Conway
Cheri D. Givan
Sean J. Keaney
Woodrow W. Mack
Jeffrey D. Marshall
William H. Zeh
Matthew F. Bengs
Yalonda N. Blizzard
Leon D. Bryant
Bradley D. Grubb
Melissa J. Humerickhouse
Trisha L. Kaseler
Calvin O. King
Steven Kohne
Scott C. Kontor
Wilfredo Romero-Torres
Vivien Seumsouk
Kenneth A. Weron
Nathan R. Witter
Brian L. Zimmerman
Frank Sonsini
H. David Barton
Kandasamy Selvavel
